NATIONAL OCEANIC
AND ATMOSPHERIC
ADMINISTRATION
Significant Security
Deficiencies in NOAA’s
	
Information Systems
Create Risks in Its
National Critical Mission

FINAL REPORT NO. OIG-14-025-A
JULY 15, 2014



U.S. Department of Commerce
Office of Inspector General
Office of Audit and Evaluation




FOR PUBLIC RELEASE
                                                           UNITED STATES DEPARTMENT OF COMMERCE
                                                           Office of Inspector General
                                                           Washington, D.C. 20230




July 15, 2014

MEMORANDUM FOR: 	 Dr. Kathryn Sullivan
                  Under Secretary of Commerce for Oceans and Atmosphere




FROM:
                              A:~~ :::YAd~ L
                              Assistant Inspector General for Systems Acquisition
                               and IT Security

SUBJECT:                      Significant Security Deficiencies in NOAA's Information Systems Create
                                Risk in Its National Critical Mission
                                Final Report No. OIG-14-025-A

Attached is our final report of our audit of NOAA's information technology security program,
which we conducted in accordance with the Federal Information Security Management Act.
Specifically, we evaluated information security controls and security-related documentation for
four National Environmental Satellite, Data, and Information Service (NESDIS) systems to
determine whether key security measures adequately protect them. Additionally, we reviewed
the independent security control assessments-conducted in FY 2012 and FY 2013 through an
intra-agency shared service agreement-of five National Weather Service (NWS) systems to
determine whether the controls were adequately assessed.

We found that (I) information systems connected to NESDIS' critical satel lite ground support
systems increases the risk of cyber attacks, (2) NESDIS' inconsistent implementation of mobile
device protections increases the likelihood of a malware infection, (3) critical security controls
remain unimplemented in NESDIS' information systems, and (4) improvements are needed to
provide assurance that independent security control assessments are sufficiently rigorous.

We have summarized your agency's response in the report and included the formal response as
appendix C. The final report will be posted on the OIG's website pursuant to section BM of the
Inspector General Act of 1978, as amended.

In accordance with Department Administrative Order 213-5, please provide us with your
action plan within 60 days of the date of this memorandum. We appreciate the cooperation and
courtesies extended to us by your staff during our audit. If you have any questions or concerns
about this report, please do not hesitate to contact me at (202) 482-1855 or Dr. Ping Sun,
Director for IT security, at (202) 482-6121.

Attachment
cc: 	   Steve Cooper, Chief Information Officer
        Mark Paese, Acting Assistant Administrator for Satellite and Information Services,
             NOAA
        Zach Goldstein, Acting Chief Information Officer, NOAA
        Rod Turk, Director, Office of Cyber Security, and Chief Information Security Officer
        Lawrence Reed, Director, Cyber Security Division, NOAA
        Vanessa Griffin, Acting Chief Information Officer, NESDIS
        Iftikhar Jamil, Assistant Chief Information Officer, NWS
        Brian Doss, Audit Liaison, NOAA
        Susan Schultz Searcy, Audit Liaison, Office of the Chief Information Officer
                                                     Report In Brief                                        JULY 15, 2014

                                       NATIONAL OCEANIC AND ATMOSPHERIC ADMINISTRATION
Background
                                       Significant Security Deficiencies in NOAA’s Information Systems Create
The National Oceanic and
Atmospheric Administration’s           Risk in Its National Critical Mission
(NOAA’s) information systems           OIG-14-025-A
are crucial to its ability to relia-
bly perform its national critical      WHAT WE FOUND
mission. They provide hazard-
ous weather forecasts and              Information systems connected to NESDIS’ critical satellite ground support systems increases the risk of cyber
warnings, which are essential in       attacks. The Polar-orbiting Operational Environmental Satellites’ (POES’) and Geostationary Operational
protecting life, property, and         Environmental Satellites’ (GOES’) mission-critical satellite ground support systems have interconnections
the nation’s economy.                  with systems where the flow of information is not restricted, which could provide a cyber attacker with
                                       access to these critical assets.
This information technology
(IT) security audit focused on         NESDIS’ inconsistent implementation of mobile device protections increases the likelihood of a malware infection.
select systems in two line             In our review of selected Windows components on four NESDIS systems, we found that (a)
offices that support NOAA’s            unauthorized mobile devices had been connected to POES, GOES, and Environmental Satellite Processing
critical mission: the National         Center (ESPC), and (b) GOES and ESPC did not consistently ensure that Microsoft Windows’ AutoRun
Environmental Satellite, Data,         feature was disabled.
and Information Service                Critical security controls remain unimplemented in NESDIS’ information systems. Our review of four NESDIS
(NESDIS) and the National              information systems found that NESDIS did not (1) appropriately remediate vulnerabilities, (2) implement
Weather Service (NWS).                 required remote access security mechanisms, and (3) implement the secure configuration settings control
Specifically, we evaluated infor-      on IT products.
mation security controls and           Improvements are needed to provide assurance that independent security control assessments are sufficiently
security-related documenta-            rigorous. We found that 28 of 60 (47 percent) of the independent assessments of security controls have
tion for four NESDIS systems           deficiencies and may not have provided NOAA’s authorizing official with an accurate implementation
to determine whether key               status of the system’s security controls.
security measures adequately
protect them. Additionally, we         WHAT WE RECOMMEND
reviewed the independent
                                       That NESDIS’ Assistant Administrator and NOAA’s Chief Information Officer:
security control assessments
of five NWS systems to deter-          1.	 Conduct a review to determine risks posed by NESDIS’ restricted systems’ current interconnections
mine whether the controls                  and ensure that USAF identifies all of DMSP’s interconnections
were adequately assessed.
                                       2.	 Document and convey to NOAA senior management the risks identified with these interconnections
Why We Did This Review                 3.	 Require that interconnected systems have completed control assessments and are authorized to
                                           operate before establishing an interconnection
The Federal Information Se-
curity Management Act of               4.	 Pursue USAF commitment to conduct security assessments on DMSP
2002 (FISMA) requires agen-            5.	 Prevent components’ moving between the GOES and SWPC networks for maintenance activities
cies to secure their infor-
mation technology (IT) sys-            6.	 Implement security mechanisms to protect against the use of unauthorized mobile devices
tems through the use of cost-          7.	 Determine a feasible remediation timeframe for applying patches to POES, GOES, and ESPC
effective management, opera-
tional, and technical controls.        8.	 Ensure appropriate priority to remediation of high-risk vulnerabilities in the required timeframe. If
                                           remediation is not feasible, ensure documentation of vulnerabilities and implementation of
In addition, FISMA requires
                                           compensating controls.
inspectors general to evalu-
ate agencies’ information              9.	 Ensure (a) information system compliance with all applicable remote access and telework policies and
security programs and prac-                (b) implementation of two-factor authentication
tices, by assessing a repre-
                                       10.Ensure NESDIS telework policy compliance with Department policy on personal devices
sentative subset of agency
systems, and the results are           11.Implement necessary security mechanisms to secure against remote access via personal computers
reported to the Office of
Management and Budget                  12.Ensure that appropriate attention is given to implementing required secure configuration settings in a
(OMB), the Department of                  timely manner and continue the implementation
Homeland Security, and Con-            That NOAA’s Chief Information Officer:
gress annually.
                                       13. Develop a quality control process for assurance that security controls are appropriately assessed
                                          before the authorization package is assembled and submitted to the authorizing official
U.S. DEPARTMENT OF COMMERCE                                                                                          OFFICE OF INSPECTOR GENERAL


Contents

Introduction .......................................................................................................................................................1

Findings and Recommendations ....................................................................................................................3

   I.   Information Systems Connected to NESDIS’ Critical Satellite Ground Support Systems
	
   Increases the Risk of Cyber Attacks ........................................................................................................3

       A. POES Is Interwoven with a Department of Defense Information System, Putting POES 

       at Significant Risk ......................................................................................................................................3

       B. Administration of SWPC Components Within the GOES System Introduces an 

       Unnecessary Security Risk......................................................................................................................6

   II. NESDIS’ Inconsistent Implementation of Mobile Device Protections Increases the 

   Likelihood of a Malware Infection.............................................................................................................8

   III.     Critical Security Controls Remain Unimplemented in NESDIS’ Information Systems .... 10

       A. NESDIS’ Ineffective Vulnerability Remediation Activities Leaves Its Mission-Critical 

       Assets Vulnerable to Compromise ................................................................................................... 10

       B. NESDIS’ Remote Access Deficiencies Leave Its Information Systems Vulnerable to
	
       Cyber Attacks ........................................................................................................................................ 11

       C. NESDIS’ Critical Mission Support Systems Continue to Lack Secure Configuration 

       Settings..................................................................................................................................................... 13

   IV. Improvements Are Needed to Provide Assurance That Independent Security Control 

   Assessments Are Sufficiently Rigorous................................................................................................. 15

Summary of Agency and OIG Comments................................................................................................ 17

Appendix A: Objectives, Scope, and Methodology................................................................................ 19

Appendix B: List of Acronyms and Abbreviations ................................................................................. 21

Appendix C: Agency Response................................................................................................................... 22





FINAL REPORT NO. OIG-14-025-A
U.S. DEPARTMENT OF COMMERCE                                           OFFICE OF INSPECTOR GENERAL


Introduction

Part of the mission of the National Oceanic and Atmospheric Administration (NOAA) is to
understand and predict changes in weather, oceans, climate, and coasts and to share that
knowledge and information with other agencies and the public. NOAA’s information systems
are crucial to its ability to reliably perform its national critical mission. They provide hazardous
weather forecasts and warnings, which are essential in protecting life, property, and the nation’s
economy. Our audit focused on select systems in two line offices that support NOAA’s critical
mission: the National Environmental Satellite, Data, and Information Service (NESDIS) and the
National Weather Service (NWS).

The Federal Information Security Management Act of 2002 (FISMA) requires agencies to secure
their information technology (IT) systems through the use of cost-effective management,
operational, and technical controls. The goal is to provide adequate security commensurate
with the risk and extent of harm resulting from the loss, misuse, or unauthorized access to or
modification of information collected or maintained by or on behalf of an agency. In addition,
FISMA requires inspectors general to evaluate agencies’ information security programs and
practices, by assessing a representative subset of agency systems, and the results are reported
to the Office of Management and Budget (OMB), the Department of Homeland Security, and
Congress annually.
As part of an overall assessment of NOAA’s IT security program, we evaluated information
security controls and security-related documentation for four high-impact NESDIS systems to
determine whether key security measures adequately protect them (see table 1).

                       Table 1: NESDIS Information Systems Reviewed

 System Name                                                 Primary Function

                                        Satellite ground support system that provides computing
 Polar-orbiting Operational
                                        resources necessary to control and collect data for weather
 Environmental Satellites (POES)
                                        imagery data from POES satellites.
                                        Satellite ground support system that provides computing
 Geostationary Operational
                                        resources necessary to command and control and collect data
 Environmental Satellites (GOES)
                                        for weather imagery data from GOES satellites.
                                        NOAA’s data-processing system for the nation’s environmental
                                        satellite data received from POES, GOES, and the European
                                        Meteorological Operational Satellite environmental satellites.
 Environmental Satellite
 Processing Center (ESPC)               ESPC distributes environmental data products to the National
                                        Weather Service (NWS); the primary forecast centers of the
                                        U.S. Navy and U.S. Air Force; and international forecast
                                        centers, academia, and private-sector entities.
 Search and Rescue Satellite            SARSAT relays distress signals—generated by aviators,
 Aided Tracking (SARSAT)                mariners, and land-based users—to search and rescue services.




FINAL REPORT NO. OIG-14-025-A                                                                      1
U.S. DEPARTMENT OF COMMERCE                                             OFFICE OF INSPECTOR GENERAL

Additionally, we reviewed the Federal Aviation Administration’s (FAA) independent security
control assessment—conducted in fiscal year (FY) 2012 and FY 2013 through an interagency
shared service agreement—of five high- and moderate-impact NWS systems to determine if the
controls were adequately assessed (see table 2).

For further details regarding the objectives, scope, and methodology of this audit, see
appendix A.

                         Table 2: NWS Information Systems Reviewed

 System Name                                                 Primary Function

                                       Enhances aviation safety by issuing warnings, forecasts and
                                       analyses of hazardous weather and originates operational
 Aviation Weather Center               forecasts of weather conditions predicted to affect domestic
 (AWC)                                 and international aviation. The Center also identifies existing or
                                       imminent weather hazards to aircraft in flight and creates
                                       warnings for transmission to the aviation community.

                                       Provides real-time monitoring and forecasting of solar and
 Space Weather Prediction              geomagnetic events, is used to conduct research in solar-
 Center (SWPC)                         terrestrial physics, and develops techniques for forecasting solar
                                       and geophysical disturbances.

                                       Provides tornado and severe weather watches for the
 Storm Prediction Center (SPC)         contiguous United States and forecasts the risk of severe
                                       thunderstorms, tornadoes, and conditions favorable for
                                       wildfires in the contiguous United States.
                                       Issues forecasts, advisories, watches, and warnings for tropical
 National Hurricane Center             cyclones over the Atlantic basin (including the Gulf of Mexico
 (NHC)                                 and Caribbean), Northeast Pacific basins, and backs up the
                                       Central Pacific Hurricane Center for tropical cyclone forecasts.

 National Centers for                  Provides forecast, guidance, and analysis products and services
 Environmental Prediction              to support the daily public forecasting activities of the National
 (NCEP) Central Operations             Weather Service and provides tailored support to other
                                       government agencies in emergency situations.




FINAL REPORT NO. OIG-14-025-A                                                                          2
U.S. DEPARTMENT OF COMMERCE                                                                      OFFICE OF INSPECTOR GENERAL


Findings and Recommendations

As part of our annual FISMA work, we reviewed NOAA’s IT security program and critical
security controls in place to protect its mission capabilities. We found that (1) the flow of
information between NESDIS’ critical satellite ground support systems and other information
systems puts its critical assets at risk of cyber attacks, (2) unauthorized mobile devices increase
the risk of a malware infection, (3) NESDIS continues to have unimplemented critical security
controls, and (4) improvements are needed to provide assurance that independent security
control assessments are sufficiently rigorous.

    I.	   Information Systems Connected to NESDIS’ Critical Satellite Ground
	
          Support Systems Increases the Risk of Cyber Attacks


     Restricting the flow of information between interconnected systems is a significant part of
     NESDIS’ IT security strategy to protect its mission critical assets—POES and GOES satellite
     ground support systems—from cyber attacks. However, we found that both POES and
     GOES have interconnections with systems where the flow of information is not restricted,
     which could provide an attacker with access to these critical assets. Although system
     interconnections can facilitate interagency and external communications and services, such
     connections can also pose significant risk to each interconnected information system (i.e.,
     more easily allow malware to spread, or attackers to use one system to access another).

     A.	 POES Is Interwoven with a Department of Defense Information System, Putting POES at
         Significant Risk

          Even though NESDIS asserted POES has restricted the flow of information with other
          systems, we found that POES is actually interwoven with U.S. Air Force’s (USAF)
          Defense Meteorological Satellite Program (DMSP) to the point where they are virtually
          one system. Specifically, there is no physical or logical separation between the systems
          (i.e., the systems operate on the same network and data can flow between the systems);
          they share support personnel, and they share some of the same support services and IT
          security controls (e.g., access control via a common Microsoft Windows Active
          Directory domain). This interweaving means that deficiencies in one system’s security
          posture will drastically affect the other system’s security.

          Unfortunately, because USAF and NOAA disputed for several years (from 2006 to
          2010) who was responsible for DMSP’s security, neither organization conducted
          security assessments of DMSP. Ultimately, USAF and NOAA determined in 2010 that
          USAF was responsible for DMSP. However, USAF has yet to fulfill its responsibilities1 by
          determining DMSP’s security posture and ensuring that the system meets the
          Department’s security requirements (see exhibit 1 for a timeline).

1
 USAF is responsible for ensuring that (1) DMSP is appropriately authorized, (2) DMSP meets the Department of Commerce’s security
requirements, and (3) security testing is conducted. See memo from Col. Alec M. Robinson, USAF Program Executive Officer for Environmental
Satellites, to NOAA Assistant Administrator for Satellite and Information Services, May 13, 2010, on DMSP Ground Service Life Extension
Program (GSLEP).



FINAL REPORT NO. OIG-14-025-A                                                                                                            3
U.S. DEPARTMENT OF COMMERCE                                                 OFFICE OF INSPECTOR GENERAL

        DMSP presents a significant security risk to POES. Without sufficient assessments,
        both USAF and NOAA have very little knowledge of DMSP’s security posture or how
        DMSP’s deficiencies affect the intertwined systems. However, we have identified risk
        factors that put the POES system at significant risk of a compromise, which could have
        an impact on NOAA’s mission capabilities. Specifically:

                 NESDIS cannot fully understand POES’ security risks because DMSP’s interconnections
                  with other information systems have not been assessed. We identified an
                  interconnection that presents significant risk to POES through its interweaving
                  with DMSP. Specifically, DMSP has an interconnection with another NOAA
                  system—one that also has significant security deficiencies of its own—that is
                  connected to the Internet. This other system’s connection to the Internet could
                  allow an attacker to gain remote access to DMSP and, through its interweaving
                  with DMSP, to POES. The existence of this interconnection was not conveyed in
                  POES’ security authorization package to NOAA management. Consequently,
                  NOAA management did not factor this significant risk into its subsequent risk-


                                  Exhibit 1. Timeline of the POES-DMSP Relationship
           1994       Presidential Directive (NSTC-2) issued. It places NOAA in charge of combining
                      POES and DMSP, with the goal of reducing duplicative capabilities.
           1998       NOAA completes the interweaving of POES and DMSP and takes responsibility
                      for DMSP. (NOAA continues to operate DMSP until 2010.)
           2003       NOAA grants DMSP a 3-year authorization to operate (ATO).
           2006       DMSP’s ATO expires, and NOAA contests its responsibility for DMSP. The
                      dispute continues until 2010. No security assessments or authorizations occur
                      during this time period.
           2010       USAF resumes responsibility for DMSP and grants an ATO without assessing the
                      system’s security posture.
           2011       USAF and NOAA again dispute responsibility for DMSP’s security posture and
                      USAF does not grant an ATO for DMSP nor conducts security assessments.
           2012       NESDIS officially acknowledges POES and DMSP are interwoven. USAF again
                      does not conduct an assessment of DMSP’s security posture. Instead, it grants
                      DMSP an ATO based on POES’ security posture.
           2013       OIG begins to review POES and GOES security postures as part of its audit of
                      NOAA’s IT security program.
                      USAF again does not conduct an assessment of DMSP’s security posture. Instead,
                      it grants DMSP an ATO based on POES’ security posture.

           Source: OIG analysis




FINAL REPORT NO. OIG-14-025-A                                                                          4
U.S. DEPARTMENT OF COMMERCE                                            OFFICE OF INSPECTOR GENERAL

                 based authorization decision. DMSP’s interconnection significantly increases
                 POES’ risk of a compromise and contradicts NESDIS’ assertions that risk to its
                 systems was decreased by restricting the flow of information between POES and
                 its interconnected systems.

             	 Limited assessments identified significant security deficiencies within DMSP. Even
                though DMSP’s current security posture is mostly unknown, significant security
                vulnerabilities were identified by NESDIS’ security testing of POES’ components
                in FY 2013, and fixes for some of these vulnerabilities have been available for a
                decade or more. NESDIS’ assessors inadvertently scanned DMSP components
                and identified serious vulnerabilities that could be easily exploited by an attacker
                (e.g., weak or default passwords and operating system vulnerabilities with well
                documented exploits). The presence of such vulnerabilities indicates a significant
                vulnerability remediation deficiency. Given the level of integration between the
                two systems, we are concerned that this deficiency is putting both of them at
                increased risk.

             	 POES will remain interwoven with DMSP, and DMSP’s security posture will remain
                deficient for some time. Presently, NESDIS does not anticipate completing an initial
                plan until the end of FY 2014 and has asserted that if funding is not available it
                will abandon any corrective actions and accept the risks of leaving the systems
                interwoven. Further, USAF does not plan to conduct an assessment of DMSP’s
                security posture until it completes a technology refresh in 2016 (i.e., replace
                DMSP’s legacy hardware and software components). However, there is doubt
                that the refresh will occur because of the USAF’s funding constraints.

        We are concerned that the necessary corrective actions to separate these systems will
        not occur for several more years; thus, the systems would remain interwoven and at
        increased risk. Further, without an assessment to understand (1) how POES and DMSP
        are interwoven, (2) the risks to POES, and (3) DMSP’s security posture, USAF and
        NESDIS will not understand the risks to either system and cannot develop an effective
        plan to address the risks and separate the two systems.

        NESDIS cannot adequately convey to NOAA management the risks to POES.
        NESDIS can neither accurately determine nor appropriately convey POES’ security
        posture, nor the risk level associated with its interweaving with DMSP, because it does
        not understand all the risks associated with DMSP’s security posture and
        interconnections. For example, the NESDIS assessors who reviewed POES could not
        effectively assess the system’s security posture because the boundaries between POES
        and DMSP components were so poorly defined (i.e., what components belonged with
        which system). Because of this, the assessors could not make an accurate determination
        of POES’ security posture without assessing both POES and DMSP. To date, no such
        assessment has been undertaken.




FINAL REPORT NO. OIG-14-025-A                                                                          5
U.S. DEPARTMENT OF COMMERCE                                         OFFICE OF INSPECTOR GENERAL

        Although POES and DMSP have been interwoven for years, it was not until POES’
        March 2012 authorization briefing that NESDIS conveyed to NOAA management that
        DMSP increased POES’ risk of a compromise and began officially including this risk in the
        Department’s risk tracking system. Even though NESDIS did not understand all the risks
        and their potential impacts, it conveyed to NOAA management that POES’ interweaving
        with DMSP represented a medium risk level (i.e., not implementing security mechanisms
        on POES presented a medium risk of compromise).

        Further, POES staff asserted that firewalls have been installed to prevent unwanted
        intrusion, thus mitigating some of the risk. However, with the two systems being closely
        interwoven and sharing resources (e.g., printers, routers, log servers, and access
        control), such firewalls will not protect POES from an internal threat originating from
        DMSP. We believe POES is not protected as NESDIS intended. This puts POES’
        capabilities, which support NOAA’s national critical mission, at risk.

    B.	 Administration of SWPC Components Within the GOES System Introduces an Unnecessary
        Security Risk

        NESDIS operates a network extension at the NWS’ Boulder, Colorado, location that
        directly connects to the primary GOES ground support system network. This extension
        hosts multiple server components maintained by SWPC, providing a proprietary one-
        way link that is designed to move space weather data from GOES to SWPC. We found
        that SWPC’s current system maintenance process, used to remediate security
        vulnerabilities and deploy new software on components within the GOES system,
        presents undue risk. Specifically:

             	 To perform the maintenance activities, SWPC staff disconnects the components
                from the GOES extension and reconnects the components to the local SWPC
                network. Once completed, the components are then reconnected to the GOES
                extension. Should the components contract a malware infection while on the
                SWPC network, the infection could spread from the returned components on
                the GOES extension and into the GOES ground support system.

             	 SWPC has a connection to the Internet through an interconnection with
                another NWS information system. This Internet connection could allow an
                attacker to compromise SWPC and, through SWPC, gain access to the GOES
                extension.

        Although the exchange of weather data is governed by an interconnection agreement
        between GOES and SWPC, we found that neither side has appropriately considered the
        risks associated with the current maintenance process. We believe that SWPC’s
        maintenance process violates NESDIS’ intended protection of the GOES information
        system. Since GOES maintains other components it owns that reside on the network
        extension, GOES should have the capability to also maintain these components.




FINAL REPORT NO. OIG-14-025-A                                                                   6
U.S. DEPARTMENT OF COMMERCE                                       OFFICE OF INSPECTOR GENERAL


    Recommendations

    We recommend that NESDIS’ Assistant Administrator and NOAA’s Chief Information
    Officer:

        1.	 Conduct a review to determine the risks posed by NESDIS’ restricted systems’
            current interconnections and ensure that the USAF identifies all of DMSP’s
            interconnections with other information systems.

        2.	 Document and convey to NOAA senior management the risks identified with these
            interconnections.

        3.	 Require that interconnected systems have completed control assessments and are
            authorized to operate before establishing an interconnection.

        4.	 Pursue USAF’s commitment that DMSP meets Department of Commerce’s security
            requirements and conduct security assessments, as outlined in a memorandum from
            the USAF to NOAA on May 13, 2010.

        5.	 Prevent components from moving between the GOES network and SWPC network
            for maintenance activities.




FINAL REPORT NO. OIG-14-025-A                                                                7
U.S. DEPARTMENT OF COMMERCE                                                                         OFFICE OF INSPECTOR GENERAL


    II.	   NESDIS’ Inconsistent Implementation of Mobile Device Protections
           Increases the Likelihood of a Malware Infection

      We reviewed a selection of Windows components, such as workstations and servers, on
      each of the four NESDIS systems to determine if the necessary security protections are in
      place to prevent unauthorized mobile device usage (e.g., USB flash drives and smartphones
      connecting to system components). Specifically, we found that

           	 Unauthorized mobile devices had been connected to POES, GOES, and ESPC,
              because each system lacked the necessary protection (see table 3, next page).
              Mobile devices can carry malware that, when plugged into a workstation or server,
              could execute malicious code residing on the device and lead to a compromised
              system. Accordingly, there has been a long-standing requirement that agencies
              restrict the use of mobile devices. Implementing required mobile device security
              mechanisms helps prevent the spread of malware and limits the risk of a
              compromise of critical assets. Further, mobile devices are one of the means by
              which an attacker can access and compromise a system with restricted
              interconnections, such as NESDIS’ satellite ground-support systems POES and
              GOES.

           	 GOES and ESPC did not consistently ensure that Microsoft Windows’ AutoRun
              feature was disabled.2 This is a critical element of mobile device security.
              According to a recent study by Microsoft, 26 percent of successful malware
              propagation was attributed to USB devices taking advantage of Microsoft Windows’
              AutoRun feature, which allowed malicious code to automatically execute when users
              plugged their infected mobile devices into computers.3 In 2009, the U.S. Computer
              Emergency Readiness Team4 (US-CERT) issued an alert regarding AutoRun,
              emphasizing that disabling it can help prevent the spread of malicious code.5

      Although SARSAT has the necessary protections to prevent the use of unauthorized mobile
      devices, POES, GOES, and ESPC do not. As it only takes one infected mobile device to
      spread malware and allow an attacker access to restricted systems like POES and GOES,
      NESDIS’ critical components are at increased risk of compromise.




2
  Autorun is a technology used to start some programs or enhanced content (such as video content on mobile device) automatically when a 

device is connected to a computer.

3
  Microsoft. Microsoft Security Intelligence Report Volume 11 [Online], download.microsoft.com/download/0/3/3/0331766E-3FC4-44E5-B1CA-
2BDEB58211B8/Microsoft_Security_Intelligence_Report_volume_11_English.pdf (accessed September 16, 2013).

4
  US-CERT, a part of the Department of Homeland Security, leads efforts to improve the nation’s cybersecurity posture, coordinate cyber
	
information sharing, and proactively manage cyber risks to the nation.

5
  US CERT. Microsoft Windows Does Not Disable AutoRun Properly [Online], www.us-cert.gov/ncas/alerts/TA09-020A (accessed September 20 2013).




FINAL REPORT NO. OIG-14-025-A                                                                                                               8
U.S. DEPARTMENT OF COMMERCE                                               OFFICE OF INSPECTOR GENERAL

      Table 3. Review of NESDIS’ Mobile Device Usage and Security Protections 

          Implemented on a Selection of Microsoft Windows Components

                                                      NESDIS Systems Reviewed
             Issue
                                       POES              GOES              ESPC                SARSAT
     Percentage of
     components with
     recent                              41%                36%                   48%            0%
     unauthorized USB
     device activity
     Percentage of
     components with                     0%                 68%                   29%            0%
     AutoRun enabled
     Types of devices           • USB flash drives   • USB flash drives   • USB flash drives
                                                                                                N/A
     identified                 • smartphones        • smartphones        • smartphones
    Source: OIG analysis

    Recommendation

    We recommend that NESDIS’ Assistant Administrator and NOAA’s Chief Information
    Officer:

        6.	 Implement security mechanisms to protect against the use of unauthorized mobile
            devices.




FINAL REPORT NO. OIG-14-025-A                                                                      9
U.S. DEPARTMENT OF COMMERCE                                                                          OFFICE OF INSPECTOR GENERAL


    III.	   Critical Security Controls Remain Unimplemented in NESDIS’ Information
            Systems

       Our review of the four NESDIS information systems (POES, GOES, ESPC, and SARSAT)
       identified that NESDIS continues to struggle to implement fundamental security
       requirements. Specifically, NESDIS did not (1) appropriately remediate vulnerabilities, (2)
       implement required remote access security mechanisms, and (3) implement the secure
       configuration settings control on IT products (e.g., operating systems, databases, and web
       servers).

       A.	 NESDIS’ Ineffective Vulnerability Remediation Activities Leaves Its Mission-Critical Assets
           Vulnerable to Compromise

            Numerous high-risk vulnerabilities remain in NESDIS’ systems because of its deficient
            vulnerability remediation practices. High-risk vulnerabilities may provide an attacker
            with immediate access into a computer system, such as allowing remote execution of
            malicious commands.

            Three of the four systems reviewed (POES, GOES, and ESPC) have a significant number
            of vulnerabilities that have not been remediated. Specifically, our review of each
            system’s vulnerability scans6 found that:

                	 POES, GOES, and ESPC have thousands of vulnerabilities, where some of the
                   vulnerabilities in the software have been publicly disclosed for as long as 13 years
                   (see table 4). The older the vulnerability, the more likely exploits have been
                   incorporated into common hacking toolkits, making it much easier for even an
                   unskilled attacker to compromise a system.

                	 ESPC and POES have not remediated 24 percent and 50 percent, respectively, of
                   the high-risk vulnerabilities7 identified by the OIG’s FY 2010 vulnerability scans.8

            Timely vulnerability management has been a security requirement for many years.9
            NESDIS asserted that, to meet this requirement, its staff follows a vulnerability
            management process wherein they perform credentialed, quarterly scans of each system
            and extensively test patches for software flaws (i.e., ensuring that the patch will not




6
  At the time of our analysis, we selected each system’s most recent vulnerability scan to determine the system’s current vulnerabilities.
7
  The percentage of unremediated vulnerabilities references unique vulnerabilities within the environment, not specific to a system component.
8
  U.S. Department of Commerce, Office of Inspector General, November 15, 2010. Office of the Secretary: Federal Information Security
Management Act Audit Identified Significant Issues Requiring Management Attention, final report no. OIG-11-012-A. Washington, DC: Commerce
OIG.
9
  National Institute of Standards and Technology, February 2005. Recommended Security Controls for Federal Information Systems, NIST Special
Publications 800-53 Rev. 3. Gaithersburg, MD.



FINAL REPORT NO. OIG-14-025-A                                                                                                               10
U.S. DEPARTMENT OF COMMERCE                                                                            OFFICE OF INSPECTOR GENERAL

                           Table 4: Unremediated High-Risk Vulnerabilities Identified
                                            on NESDIS’ Systems
                                                                    NESDIS Systems Reviewed
            Time                    POES                            GOES                ESPC                                     SARSAT
            framea         Unique                          Unique                        Unique                           Unique
                            Vul.b        Instancesc         Vul.         Instances        Vul.          Instances          Vul.        Instances
            1990–
            1999                9               36              0                0            12             139              2              2
            2000–
            2009             203             1,576             47          1,221            548            7,368              0              0
            2010–
            2012d            697             5,639           251           4,080          2,063          42,968             94            197
            Total            909           7,251             298           5,301          2,623          50,475             96            199
           Source: OIG analysis

           a
              Time frame is when the vulnerability was identified in the software.

           b.
              Unique vulnerabilities is a total number of the distinct vulnerabilities for a specified timeframe on the
           system.
           c.
              Instances are the total number of vulnerabilities on a system for a specified timeframe.
           d.
              Since the scans we reviewed occurred at the beginning of 2013, the vulnerabilities related to 2013 were
           not included.
           cause software to crash) before applying them. However, NESDIS staff admitted that
           they do not follow their own vulnerability remediation process. Specifically,

                	 Staff claimed that they are unable to deploy software and operating system
                   security patches to POES, GOES, and ESPC within the approved patch cycle.10

                	 Staff from three of four NESDIS systems (POES, GOES, and ESPC) indicated that
                   they do not track patches that cannot be applied to system components. This
                   not only results in unpatched components, but it also leaves NESDIS with an
                   inaccurate understanding of security risks within each system.11

           As identified in findings I and II, NESDIS’ systems are vulnerable to external attacks via
           unauthorized USB devices and system interconnections. Further, the presence of
           numerous high-risk vulnerabilities increases the risk that these systems could be
           successfully compromised.

     B.	 NESDIS’ Remote Access Deficiencies Leave Its Information Systems Vulnerable to Cyber Attacks

           Both ESPC and SARSAT—the two systems we reviewed that allow remote access—lack
           two-factor authentication and do not have sufficient mechanisms to restrict the use of
           personal computers.

10
   NESDIS increased the remediation timeframe for GOES from the Department’s required 30 days to 120 days to allow for more rigorous
testing of software patches.
11
   In some instances, applying patches to fix a software flaw can affect a system’s operations (such as rendering custom software inoperable) or
have other adverse effects. If a patch cannot be applied, compensating controls are identified that will mitigate the risks of operating with the
vulnerability. However, NESDIS did not have evidence of this process being applied in its remediation activities.



FINAL REPORT NO. OIG-14-025-A                                                                                                                    11
U.S. DEPARTMENT OF COMMERCE                                                                        OFFICE OF INSPECTOR GENERAL

          NESDIS’ information systems lack the required two-factor authentication
          necessary to secure remote access to its critical assets. We found that ESPC and
          SARSAT12 have not implemented two-factor authentication for remote access. Without
          two-factor authentication, stolen credentials with administrative privileges could allow
          an attacker full access to the information system. For example, use of a secure token
          (e.g., a physical form of identification that is more difficult for an attacker to acquire)
          provides a second, stronger authentication element—in addition to basic authentication
          mechanisms such as a username and password—to the remote access process. As
          introduced in finding I, an attacker with access to one system poses a threat to other
          interconnected systems.

          Implementation of two-factor authentication is a government-wide requirement for
          high-impact systems. Owing to resource constraints, NESDIS has chosen to forgo this
          requirement at this time. Further, NESDIS has not developed plans to implement the
          requirement, nor is it clear when NESDIS will comply.

          NESDIS did not follow the Department’s requirement to restrict the use of
          personal computers for remote access. As personal computers are not required to
          adhere to Department policy, there is a distinct lack of assurance that these computers
          have the security necessary to protect the Department’s information systems and data.
          Accordingly, the Department has expressly prohibited the use of personal computers
          for remotely accessing information systems for several years.13 However, NESDIS does
          not restrict personal computer use; instead allowing personal computer use based on
          operational need, including remote administration of an information system. Specifically,
          we found:

                	 NESDIS information systems lack the necessary security mechanisms to prohibit
                   personal computer use. ESPC and SARSAT asserted that appropriate remote
                   access security mechanisms, including restricting personal computers, are
                   implemented. However, we found the systems lack the necessary technical
                   enforcement mechanisms to monitor for and stop personal computers from
                   remotely accessing the information systems (e.g., checking remote connections
                   to identify and restrict to authorized computers only).

                	 NESDIS has experience with the perils of allowing personally owned devices access to
                   its systems. In a FY 2013 cyber incident, an attacker exfiltrated data from a
                   NESDIS system to a suspicious external IP address via the remote connection
                   established with a personal computer. The NOAA Computer Incident Response
                   Team determined that the personal computer was likely infected with malware,
                   but NOAA could not pursue the investigation because it involved a personal
                   device, not government equipment (i.e., the owner of the personal computer,
                   even though a NESDIS contractor, did not give NOAA permission to perform
                   forensic activities on the personal computer). This incident highlights the risk of
12
   SARSAT has a waiver for two-factor authentication as it applies to its public user base. However, we are concerned with its system

administrators, contractors, and other local users remotely accessing the system, for which that requirement still applies.

13
   Department policy specifies that personal computers are only allowed to access Web-based email services and select secure Web portals.

U.S. Department of Commerce, February 2013, “Telework Program.”



FINAL REPORT NO. OIG-14-025-A                                                                                                                12
U.S. DEPARTMENT OF COMMERCE                                                                     OFFICE OF INSPECTOR GENERAL

                     using personal computers to remotely access government information systems,
                     as well as hindrances to incident response efforts.

               	 NESDIS’ current telework policy does not provide critical guidance on the appropriate
                  use of personal computers. Although NESDIS asserts that its policies and staff
                  follow the Department’s policies, we found that NESDIS’ telework policy is
                  ambiguous and contradicts the Department’s telework policy. Specifically,
                  NESDIS’ policy does not specify under what circumstances personal computers
                  are authorized to remotely access NESDIS’ information systems, nor who may
                  do so. Consequently, NESDIS’ staff does not have clear guidance on this matter.
                  By allowing access by personal computers, NESDIS is jeopardizing the security of
                  its information systems.

     C. NESDIS’ Critical Mission Support Systems Continue to Lack Secure Configuration Settings

          We found that NESDIS has not implemented the secure configuration settings control,
          an essential aspect of securing an information system that, when appropriately
          implemented, can effectively minimize cyber attacks. For example, attackers look for
          easily exploitable default (unsecured) system configurations (e.g., extraneous software
          installed and default passwords) that are often set for ease-of-deployment and ease-of-
          use.

          In order to implement secure configuration settings, each information system must
          (1) define a set of secure configuration settings for each IT product, (2) implement the
          configuration settings on all system components, (3) document approved deviations
          from the mandatory configuration settings, and (4) monitor components for changes to
          the established configuration settings.14 Despite secure configuration settings being a
          required security control for more than six years, NESDIS’ systems are only in the
          beginning stages of implementing this critical control’s requirements.

          We found that

               	 None of the systems have successfully fulfilled these requirements, and the secure
                  configuration settings remain unimplemented. POES and GOES are in the process of
                  defining secure baselines for the IT products in each system (the first
                  requirement). SARSAT and ESPC are implementing the selected baselines and
                  documenting deviations (the second and third requirements).

               	 NESDIS has acquired an enterprise configuration settings monitoring tool (to meet the
                  fourth implementation requirement), but its systems have not yet implemented secure
                  configuration settings. NESDIS intends to deploy the tool enterprise-wide to
                  monitor baselines within all systems’ components. However, each system (and
                  NESDIS as a whole) cannot effectively use the tool to monitor for changes until
                  secure baselines are selected and implemented, and deviations are documented.

14
  National Institute of Standards and Technology, Computer Security Division Information Technology Laboratory, August 2009. Recommended
Security Controls for Federal Information Systems and Organizations, NIST Special Publication 800-53 Rev. 3. Gaithersburg, MD.



FINAL REPORT NO. OIG-14-025-A                                                                                                         13
U.S. DEPARTMENT OF COMMERCE                                            OFFICE OF INSPECTOR GENERAL

        Until NESDIS completely implements this critical control, assets central to its mission
        will continue to operate in an unsecure, vulnerable state.

    Recommendations

    We recommend that NESDIS’ Assistant Administrator and NOAA’s Chief Information
    Officer:

        7.	 Determine a feasible remediation timeframe for applying patches to POES, GOES,
            and ESPC.

        8.	 Ensure that management gives appropriate priority to remediation of high-risk
            vulnerabilities in the required timeframe. If remediation is not feasible, ensure that
            vulnerabilities are documented and that compensating controls are implemented.

        9.	 Ensure that information systems are compliant with all applicable remote access and
            telework policies and that two-factor authentication is implemented.

        10. Ensure that NESDIS’ telework policy complies with Department policy concerning
            the use of personal devices for remote access.

        11. Implement the necessary security mechanisms to secure against remote access via
            personal computers.

        12. Ensure that appropriate attention is given to implementing required secure
            configuration settings in a timely manner and continue the implementation by: (1)
            establishing and documenting mandatory configuration settings; (2) implementing
            these settings; (3) identifying, documenting, and approving deviations from
            mandatory settings; and (4) monitoring components for changes to the implemented
            settings.




FINAL REPORT NO. OIG-14-025-A                                                                        14
U.S. DEPARTMENT OF COMMERCE                                                                               OFFICE OF INSPECTOR GENERAL


 IV.	      Improvements Are Needed to Provide Assurance That Independent
           Security Control Assessments Are Sufficiently Rigorous

     An independent security control assessor must evaluate the security controls implemented
     on an information system prior to the organization placing the system into operation. These
     independent assessments provide the authorizing official (AO)15 with an unbiased accounting
     of the system’s security posture, such as the implementation status of security controls. The
     AO uses this information to ensure that the risks identified during the assessments are of an
     acceptable level to allow the system to operate. Inadequate security control assessments
     could misrepresent a system’s security posture, giving the AO an inaccurate understanding
     of the risks when granting an authorization to operate.

     To meet the requirement for independent security assessments of its information systems,
     NOAA procured the services of the FAA Enterprise Service Center, which is designated by
     OMB as a certification and accreditation shared-services provider. We evaluated 12 critical
     security control assessments16 on each of the five NWS systems, for a total of 60 controls,
     to determine the quality of FAA’s assessments. We found that 28 of 60 (47 percent) of the
     control assessments have deficiencies and may not have provided the AO with an accurate
     implementation status of the system’s security controls.

     Independent assessors did not conduct sufficiently rigorous assessments of critical
     security controls. NOAA selected a designated certification and accreditation shared-
     services provider with the expectation that the assessments would be sufficiently rigorous.
     However, our review identified the following types of assessment deficiencies:

           	 Assessment results lacked supporting evidence. Although the FAA assessors reported
              that they performed appropriate tests of the security controls, there was no
              evidence to support the assessment results. For example, assessors claimed that
              components were configured to require appropriate password protections, but the
              assessors did not provide any evidence that an assessment was conducted.

           	 Evidence collected during the assessments contradicted the assessor’s conclusion. The FAA
              assessors asserted that controls were appropriately implemented, despite evidence
              that directly contradicted these assertions. For example, the assessors concluded
              that there was an established baseline of authorized software enforced on the
              system, despite evidence collected by the assessors showing the presence of
              unauthorized software.

           	 Not all requirements of the security control were assessed. Regularly scanning system
              components for vulnerabilities is a key security requirement. Scans must be
              conducted with the appropriate credentials, which provide more complete
              vulnerability information. For example, the FAA assessors concluded the control was
15
   The authorizing official is a senior official or executive with the authority to formally assume responsibility for operating an information system
at an acceptable level of risk to organizational operations and assets, individuals, other organizations, and the nation. Authorizing officials
typically have budgetary oversight for an information system or are responsible for the mission and/or business operations supported by the
system.
16
   These 12 security controls are a sub-set of the NIST 800-53 controls, which we selected as critical to securing an information system.



FINAL REPORT NO. OIG-14-025-A                                                                                                                       15
U.S. DEPARTMENT OF COMMERCE                                            OFFICE OF INSPECTOR GENERAL

             implemented, but they had an insufficient basis for reaching this conclusion, as they
             had not verified that NWS staff had conducted credentialed scans.

        	 Not all types of IT products in a system were assessed. To ensure that security controls
           are appropriately implemented on a system, assessors should assess each type of IT
           product in the information system. The FAA assessors, however, only reviewed
           certain IT products in a given NWS system—such as Microsoft Windows and Red
           Hat Linux—and did not assess others, such as Cisco IOS or databases. Thus, the
           assessors gained an incomplete picture of the risks within each system, and the
           implementation status of controls on these IT products remains unknown.

    NOAA would benefit from incorporating quality control measures into its review
    process. Currently, to ensure that authorization packages are complete and accurate prior
    to the AO’s review, NOAA’s OCIO staff conducts a compliance review. However, the
    review does not check the quality of the independent security control assessments; instead,
    it only ensures that the package has the required documents.

    While NOAA’s selection of a designated shared-service provider should have ensured its
    independent assessments were sufficiently rigorous, our findings indicate that NOAA would
    benefit from incorporating quality control measures into its review process. With these
    measures, the authorizing official has more assurance that the authorization package
    received is sufficient for an informed, risk-based decision.

    Recommendation

    We recommend that NOAA’s Chief Information Officer:

        13. Develop a quality control process that provides better assurance that security
            controls are appropriately assessed before the authorization package is assembled
            and submitted to the authorizing official.




FINAL REPORT NO. OIG-14-025-A                                                                        16
U.S. DEPARTMENT OF COMMERCE                                             OFFICE OF INSPECTOR GENERAL


Summary of Agency and OIG Comments

NOAA Response

In response to our draft report, NOAA generally concurred with the findings and
recommendations. NOAA indicated that it had already implemented recommendation 3, and
partially implemented recommendation 7. NOAA also included suggested factual and technical
changes to our findings.

NOAA stated that it implemented recommendation 3 by requiring that all NESDIS systems
annually complete an authorization with independent security controls and risk assessments,
and that both interconnected systems have a current authorization. NOAA also stated it has
implemented recommendation 7 for GOES, and planned to implement for POES and ESPC.

NOAA took issue with some of the statements in findings I and III of the report, asking those
to be revised. The specific issues NOAA highlighted are as follows:
    Issue 1:     The statement that NOAA management did not factor risks associated with the
                 POES-DMSP interconnection, when making the decision to authorize POES.
    Issue 2:     The statement that DMSP is operating with significant deficiencies because the
                 assessments referenced by the OIG occurred in 2013.
    Issue 3:     The use of the statement “will immediately” inferred that NOAA was
                 deliberately choosing not to correct significant deficiencies.
    Issue 4:     The statement that NOAA could not appropriately characterize the POES-
                 DMSP interconnection as a medium risk.
    Issue 5:     The 2013 incident discussed in the finding III. B. was out of the scope of this
                 audit because it was not directly related to the systems we assessed.

NOAA’s response is reproduced in its entirety in appendix C of this report.

OIG Comments

With regard to recommendation 3, NOAA’s implementation is partially responsive to our
recommendation. Our recommendation asks NOAA to require that all systems, even those
owned by other agencies, complete control assessments and be authorized to operate, before
establishing a connection.

While we made some modifications to our report based on NOAA’s response in issues 2 and
3, we stand by the statements regarding issues 1, 4, and 5, and explain our rationale accordingly:

    Issue 1:	    The statement was referencing the risk associated with DMSP’s interconnection
                 with another high-impact NESDIS system that is connected to the Internet. This
                 risk was not specifically conveyed in POES’s authorization package to NOAA
                 management.



FINAL REPORT NO. OIG-14-025-A                                                                      17
U.S. DEPARTMENT OF COMMERCE                                            OFFICE OF INSPECTOR GENERAL

                 The authorization package is used by authorizing officials to make the risk-based
                 decision in allowing a system to operate. Considering the close interweaving of
                 POES and DMSP, the risk of interconnection between DMSP and the other
                 NESDIS information system, which has a connection to the Internet, should have
                 been specifically included in the authorization package.

    Issue 4:	    Regarding the POES-DMSP interconnection, NOAA did not consider the
                 security risks within DMSP when determining the risk level for the
                 interconnection, because the security posture of DMSP is unknown.

                 Currently, DMSP and POES continue to share domain controllers, which provide
                 central account management and authentication services for these two systems.
                 Sharing these critical services provide an easy way for malicious attackers to
                 attack POES through DMSP, by bypassing nearly all internal protection
                 mechanisms such as firewalls and user access controls.

                 We also believe that current security controls in place within POES will not
                 effectively protect POES from attacks originating from DMSP. NOAA’s own risk
                 assessment report on POES, dated March 18, 2014, stated “there is no
                 protection between DMSP and POES and the boundary is not properly
                 documented.”

    Issue 5:	    The incident mentioned in the report is very relevant to our finding related to
                 remote access. As stated in the report, “this incident highlights the risk of using
                 personal computers to remotely access government information systems, as well
                 as hindrances to incident response efforts.” However, we acknowledge that the
                 incident did not occur on one of the systems that we focused on for our review.




FINAL REPORT NO. OIG-14-025-A                                                                     18
U.S. DEPARTMENT OF COMMERCE                                          OFFICE OF INSPECTOR GENERAL


Appendix A: Objectives, Scope, and
Methodology
Our audit objective was to assess the effectiveness of NOAA’s information security program by
determining whether key security measures adequately protect NOAA’s systems. To do so,
we:

    	 Assessed a subset of security controls on information system components

    	 Reviewed system-related artifacts, including policy and procedures, planning documents,
       and other material supporting the security authorization process

    	 Interviewed operating unit personnel, including system owners, IT security officers, IT
       administrators, and organizational directors and administrators

We reviewed NOAA’s compliance with the following applicable internal controls, provisions of
law, regulation, and mandatory guidance:

    	 The Federal Information Security Management Act of 2002

    	 IT Security Program Policy and Minimum Implementation Standards, U.S. Department of
       Commerce, introduced by the Chief Information Officer on January 9, 2009, and
       applicable Commerce Information Technology Requirements

    	 NIST Federal Information Processing Standards Publications:

             o	 199, Standards for Security Categorization of Federal Information and
                Information Systems

             o	 200, Minimum Security Requirements for Federal Information and Information
                Systems

    	 NIST Special Publications:

             o	 800-37 Rev. 1, Guide for Applying the Risk Management Framework to Federal
                Information Systems: A Security Life Cycle Approach

             o	 800-53 Rev. 3, Recommended Security Controls for Federal Information Systems
                and Organizations

             o	 800-53 A Rev. 1, Guide for Assessing the Security Controls in Federal
                Information Systems and Organizations, Building Effective Security Assessment
                Plans




FINAL REPORT NO. OIG-14-025-A                                                                    19
U.S. DEPARTMENT OF COMMERCE                                      OFFICE OF INSPECTOR GENERAL

We conducted our field work from March 2013 to December 2013. We performed this audit
under the authority of the Inspector General Act of 1978, as amended, and Department
Organization Order 10-13, dated April 26, 2013, and in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the audit to
obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions.




FINAL REPORT NO. OIG-14-025-A                                                              20
U.S. DEPARTMENT OF COMMERCE                                                 OFFICE OF INSPECTOR GENERAL


Appendix B: List of Acronyms and
Abbreviations
 Acronym                                                          Definition

 AO                             Authorizing Official
 ATO                            Authorization to Operate
 AWC                            Aviation Weather Center
 Cisco IOS                      Cisco Internetwork Operating System
 DMSP                           Defense Meteorological Satellite Program
 ESPC                           Environmental Satellite Processing Center
 FAA                            Federal Aviation Administration
 FISMA                          The Federal Information Security Management Act of 2002
 GOES                           Geostationary Operational Environmental Satellites
 GSLEP                          Ground Service Life Extension Program
 IT                             Information Technology
 NCEP                           National Centers for Environmental Prediction
 NESDIS                         National Environmental Satellite, Data, and Information Service
 NHC                            National Hurricane Center
 NIST                           National Institute for Standards and Technology
 NOAA                           National Oceanic and Atmospheric Administration
 NWS                            National Weather Service
 OCIO                           Office of the Chief Information Officer
 POES                           Polar-orbiting Operational Environmental Satellites
 SARSAT                         Search and Rescue Satellite Aided Tracking
 SPC                            Storm Prediction Center
 SWPC                           Space Weather Prediction Center
 USAF                           U.S. Air Force
 USB                            Universal Serial Bus
 Vul                            Vulnerabilities




FINAL REPORT NO. OIG-14-025-A                                                                       21
U.S. DEPARTMENT OF COMMERCE     OFFICE OF INSPECTOR GENERAL


Appendix C: Agency Response





FINAL REPORT NO. OIG-14-025-A                           22
U.S. DEPARTMENT OF COMMERCE     OFFICE OF INSPECTOR GENERAL




FINAL REPORT NO. OIG-14-025-A                           23
U.S. DEPARTMENT OF COMMERCE     OFFICE OF INSPECTOR GENERAL




FINAL REPORT NO. OIG-14-025-A                           24
U.S. DEPARTMENT OF COMMERCE     OFFICE OF INSPECTOR GENERAL




FINAL REPORT NO. OIG-14-025-A                           25
U.S. DEPARTMENT OF COMMERCE     OFFICE OF INSPECTOR GENERAL




FINAL REPORT NO. OIG-14-025-A                           26
U.S. DEPARTMENT OF COMMERCE     OFFICE OF INSPECTOR GENERAL




FINAL REPORT NO. OIG-14-025-A                           27
U.S. DEPARTMENT OF COMMERCE                    OFFICE OF INSPECTOR GENERAL




                                011200000163



FINAL REPORT NO. OIG-14-025-A                                          28
